BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that the original
and 2 copies of the foregoing Opposition of
Respondents to the Emergency Application for Writ of
Injunction Pending the Filing and Disposition of a
Petition for a Writ of Certiorari in No. 20A98, Mike
Kelly, U.S. Congressman, et al. v. Commonwealth of
Pennsylvania, et al., were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 8th day of December, 2020:
Gregory H. Teufel
OGC Law, LLC
1575 McFarland Rd.
Suite 201
Pittsburgh, PA 15216
(412) 253-4622
gteufel@ogclaw.net

Counsel for Applicants

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

i
i

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Robert A. Wiygul
Michele D. Hangley
John G. Coit
Christina C. Matthias
John B. Hill
Hangley Aronchick Segal Pudlin & Schiller
One Logan Square, 27th Floor
Philadelphia, PA 19103-6933
(215) 568-6200
rwiygul@hangley.com
mhangley@hangley.com
jcoit@hangley.com
cmatthias@hangley.com
jhill@hangley.com
Barry H. Berke
Dani R. James
Michelle Ben-David
Kramer Levin N aftalis & Frankel LLP
1177 Avenue of the Americas
New York, New York 10036
(212) 715-9100
b berke@kramerlevin.com
djames@kramerlevin.com
Joshua Matz
Raymond P. Tolentino
Harmann Singh
Kaplan Hecker & Fink LLP
350 Fifth Avenue, Suite 7110
New York, NY 10118
(212) 763-0883
jmatz@kaplanhecker.com

J. Bart De Lone
Chief Deputy Attorney General
Appellate Litigation Section
Sean A. Kirkpatrick
Senior Deputy Attorney General
Daniel B. Mullen
Deputy Attorney General
Office of Pennsylvania Attorney General
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 783-3226
jdelone@attorneygeneral. gov
skirkpatrick@attorneygeneral.gov
Counsel for Respondents Commonwealth of
Pennsylvania, Thomas W Wolf, and Kathy Boockvar
Jonathan F. Bloom
Karl S. Myers
Spencer R. Short
Melissa L. Perry
Stradley Ronon Stevens and Young, LLP
2005 Market Street, Suite 2600
Philadelphia, PA 19103
(215) 564-8065
jbloom@stradley.com
kmyers@stradley.com
sshort@stradley.com
mperry@stradley.com
Counsel for Respondent
Pennsylvania General Assembly

Charles R. Gerow, Esq.
Counsel of Record
4 725 Charles Road
Mechanicsburg, Pennsylvania 17050
(717) 877-8194
cgerow@quantumcomms.com
Counsel for Amicus Curiae
Members of the Pennsylvania General Assembly

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 8, 2020.

D na J. Wolfl_
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

1X;;c/1 , ~

Notary
[seal]

~bu._ Y J dO dV

